U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 9, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Isaac L. Hobbs v. United States of America,
S.Ct. No. 20-171

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 13,
2020, and placed on the docket on August 17, 2020. The government’s response is due on
September 16, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 16, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0171
HOBBS, ISAAC L.
USA

MICHAEL DOMINIC MEUTI
BENESCH, FRIEDLANDER, COPLAN &
ARONOFF LLP
200 PUBLIC SQUARE
SUITE 2300
CLEVELAND, OH 44114
216-363-6246
MMEUTI@BENESCHLAW.COM

